The Department of Justice Office of the Inspector General (OIG) issued an interim report today
regarding the Department of Justice’s handling of known or suspected terrorists admitted into
the federal Witness Security Program. The interim audit report focuses on the Witness Security
Program activities administered by the Criminal Division’s Office of Enforcement Operations and
the United States Marshals Service. While conducting its audit of the Witness Security Program,
the OIG found significant issues concerning national security that it believed required immediate
remedy and notified Department leadership of them, and the OIG developed the interim report
to help ensure that those deficiencies were promptly and sufficiently addressed. The OIG will
continue its review and evaluate the Department’s progress in implementing corrective
measures that the Department indicated it had implemented or was in the process of
implementing in response to the 16 recommendations contained in the interim report.

The interim report was issued and delivered to the Department and the relevant Congressional
committees. Due to statutory restrictions and concerns about national security and the safety
of participants in the Witness Security Program cited by the Department, most of the results of
the OIG’s full interim report are not releasable publicly. An unclassified summary including
publicly releasable information from the full interim report was released and is available on the
OIG website at http://www.justice.gov/oig/reports/2013/a1323.pdf.
